CERTIFICATE OF WORD COUNT
No, TBD
Avtar S'. Badwal,
Petitioner (s),
v.
Ramandeep Badwal,
Respondent(a).
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That 1 am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
;
-2. That, as required by Supreme Court Rule 33.1(h), 1 certify that the Avtar S. Badwal
Petition for Writ of Certiorari contains 7936 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1 (d).
' I declare under penalty of perjury that the foregoing is true and correct.

I
Dan Abramovich

December 4, 2019
SCP Tracking: Badwal-9737 120th Street-Cover White

A

